OFFICE OF INSPECTOR GENERAL

MANAGEMENT LETTER ON
OPENLY-SHARED SENSITIVE
INFORMATION ON USAID’S IT
NETWORK

SEPTEMBER 12, 2014



WASHINGTON, D.C.
This is a summary of our management letter on openly-shared, sensitive information on
USAID’s IT network.

During the “Audit of USAID’s Progress in Adopting Cloud-Computing Technologies” the Office of
Inspector discovered sensitive information on USAID’s IT network for which access had not
been restricted. Because of the seriousness of the findings, OIG immediately issued a
management letter to notify the Agency’s Chief Information Officer and Chief Privacy Officer so
they could take immediate action.

In response, the Chief Privacy Officer said the Agency had reported the incident to USCERT
and begun to take corrective action.
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
